        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
The Department's Management of
the ENERGY STAR Program




DOE/IG-0827                      October 2009
                                 Department of Energy
                                   Washington, DC 20585
                                       October 14, 2009



MEMORANDUM FOR THE SECRETARY

FROM:                   Gregory H. Friedman
                        Inspector General
SUBJECT:                INFORMATION: Audit Report on "The Department's
                        Management of the ENERGY STAR Program"

BACKGROUND

The American Recovery and Reinvestment Act (Recovery Act) authorized about $300 million in
consumer rebate incentives for purchases of products rated under the "ENERGY STAR"
Program. ENERGY STAR, a voluntary labeling program established in 1992, provides
consumers with energy efficiency data for a range of products so that they can make informed
purchase judgments. The overall goal of the program is to encourage consumers to choose
energy efficient products, advancing the nationwide goal of reducing energy consumption.
The U.S. Environmental Protection Agency (EPA) managed the ENERGY STAR Program on a
stand-alone basis until 1996 when it joined forces with the Department of Energy (Department).
A Memorandum of Cooperation expanded the ENERGY STAR product categories, giving the
Department responsibility for overseeing eight product categories such as windows, dishwashers,
clothes washers, and refrigerators, while EPA retained responsibility for electronic product
categories and heating, ventilating, and cooling equipment. Each agency is responsible for
setting product efficiency specifications for those items under its control and for ensuring the
proper use of the ENERGY STAR label in the marketplace.
In August 2007, the EPA Office of Inspector General issued an audit report identifying
significant control weaknesses in EPA's management of ENERGY STAR. The Department,
concerned by the findings at EPA and eager to improve its own program, developed an approach
to verify adherence to product specifications, ensure proper use of the ENERGY STAR label in
the marketplace, and improve the establishment of product specifications.

As evidenced by the commitment of $300 million in Recovery Act funds, the ENERGY STAR
Program plays an important role in the U.S. efforts to reduce energy consumption. We initiated
this audit to determine whether the Department had implemented the actions it announced in
2007 to strengthen the Program.

RESULTS OF AUDIT
The Department had not implemented planned improvements in the ENERGY STAR Program.
Our audit revealed that officials had not:
   •   Developed a formal quality assurance program to help ensure that product specifications
       were adhered to;

   •   Effectively monitored the use of the ENERGY STAR label to ensure that only qualifying
       products were labeled as compliant; and,

   •   Formalized procedures for establishing and revising product specifications and for
       documenting decisions regarding those specifications.

In our judgment, the delay in the Department's planned improvements in its management of the
ENERGY STAR Program could reduce consumer confidence in the integrity of the ENERGY
STAR label. Such loss of credibility could reduce energy savings, increase consumer risk, and
diminish the value of the recent infusion of $300 million for ENERGY STAR rebates under the
Recovery Act.

                  Consistent and Comprehensive Independent Testing Program

Even though it recognized that a need existed to ensure that products provided promised savings,
the Department had not developed a consistent, comprehensive testing program for all of its
ENERGY STAR product categories. While it required manufacturers of three product
categories, including solid state lighting, compact fluorescent lighting, and windows to use an
independent testing service to demonstrate compliance with ENERGY STAR specifications, the
Department allowed manufacturers of five other product categories to self-certify compliance.
This included specifications for such high energy consumption appliances as
refrigerators/freezers, clothes washers, dishwashers, water heaters, and room air conditioners.

The importance of the Department's 2007 plan to improve product verification controls was
affirmed by an October 2008 independent ENERGY STAR Program review conducted by a
panel of outside experts, including manufacturers and retailers. The purpose of the review was
to assess if the program was pursuing the proper courses of action to accomplish its objective of
promoting the adoption of energy efficient appliances by consumers. The review, which was
requested and sponsored by the Department, concluded that the most significant shortcoming of
the ENERGY STAR Program was the lack of oversight and control in the area of product testing
and certification. The review panel members concluded that the self-reporting that was allowed
for certain products was unreliable and led to erroneous test results. In spite of the findings of
the 2008 independent panel review, the Department had not implemented corrective actions to
address the certification and testing weaknesses.

The general concerns about product testing and certification were more than theoretical; they were
supported by actual events. We found that there were confirmed examples of well-known
refrigerator models that used the ENERGY STAR label, but failed to meet the ENERGY STAR
criteria. The case in point came to the Department's attention when a manufacturer raised concerns
regarding two competitors' ENERGY STAR ratings. A subsequent evaluation by an independent
testing service confirmed that the refrigerator models were not compliant with specifications. Yet,
the manufacturers had self-certified compliance with ENERGY STAR specifications for the
refrigerators in question. For example, according to the independent testing service, one
manufacturer significantly underestimated energy consumption; its refrigerators actually used over
                                                2
double the amount of energy than it had claimed. In November 2008, the Department announced a
settlement agreement that required one manufacturer to voluntarily and temporarily withdraw non-
compliant models from the ENERGY STAR Program and to:

   •   Offer consumers a free in-home modification of the refrigerators to improve their energy
       efficiency;
   •   Pay consumers for the cost difference between the assumed average energy use of the
       products and the amount stated on the original ENERGY STAR label; and,

   •   Remove unsold models from retailer stocks and modify them to ensure that they satisfy
       obligations of the agreement before being sold.

The Department was pursuing additional testing data for the second manufacturer's refrigerator
model at the time of our review. This will lead to decisions as to available remedies.

                       Monitoring the Use of the ENERGY STAR Label

The Department had committed to more effective monitoring of the use of the ENERGY STAR
label. Specifically, in 2007, the Department expressed its intent to ensure proper use of the
ENERGY STAR label by conducting retail assessments and reviewing advertisements. Yet, at
the time of our audit, it had not implemented the needed improvements. In particular, we noted
that the Department relied on retail assessments conducted by EPA to ensure the proper use of
the ENERGY STAR label. We found, however, that the scope of EPA retail assessments was
limited to only five of the Department's eight product categories—compact fluorescent lighting,
clothes washers, dishwashers, room air conditioners, and refrigerators. The remaining product
categories, including windows/doors/skylights, water heaters, and solid-state lighting, had not
been reviewed. Although water heaters and solid-state lighting are relatively new product
categories, the Department had not yet made arrangements to include these two product
categories in future assessments.

In addition, the extent of monitoring of the ENERGY STAR label in the marketplace upon which
the Department relied to ensure proper use of the label had decreased since 2001. Specifically,
the number of manufacturers' products selected for review in each category had declined from
four in its first round of testing in 2001 to only one in a round of testing performed in a 2008
assessment, according to information published by EPA. Despite the decline in the number of
manufacturers' products reviewed in the market assessments, the Department had not acted to
expand the number of its products by implementing its own assessment program.

Finally, the Department had not ensured final resolution of labeling violations identified during
EPA's retailer assessments. The Department assisted EPA in resolving potential violations
identified during retail assessments. After each assessment, EPA provided the Department with
a list of products that were potentially mislabeled as ENERGY STAR. The Department
researched product databases, removed products determined to be correctly labeled from the list,
and returned questionable items to EPA for resolution. The Department, however, did not follow
up with EPA to ensure final resolution and, where appropriate, removal of ENERGY STAR
labels from non-qualified products. After the 2008 retail assessment, for example, the
Department sent EPA information noting four potential instances of non-qualified refrigerators
                                               3
being labeled as ENERGY STAR products. However, the Department did not follow up with
EPA to confirm whether these were actual violations and to ensure final resolution of any
confirmed violations.

Accordingly, we concluded that the Department needed to ensure implementation of its 2007
plan to improve controls in order to ensure proper use of the ENERGY STAR label in the
marketplace.

                   Procedures for Setting and Revising Product Specifications

The Department had not completed formalized procedures and documentation requirements for
setting and revising product specifications as planned in 2007. As such, we found – and other
independent reviewers confirmed – the need for improved controls over setting and revising
product specifications. The Department, for example, had not developed procedures to ensure
that:

   •   Reviews of product market availability data are performed when setting specifications;
       and,

   •   Officials perform and document periodic evaluations of market and product conditions
       that could trigger a revision to established ENERGY STAR specifications.

One of the ENERGY STAR Program's guiding principles is to limit the application of the
ENERGY STAR label to the top 25 percent of products available on the market. A 1999
Presidential Directive dedicated to achieving greater energy savings likewise defined the most
energy efficient items as those in the top 25 percent of available products. We found, however,
that the Department had not established procedures requiring the review and documentation of
market availability data when setting and revising ENERGY STAR product specifications. In
particular, we found that the Department had set specifications for three of eight product
categories without reviewing and documenting the market availability of those categories of
products. Therefore, the Department was not in a position to determine the extent to which the
specifications for room air conditioners, compact fluorescent lights (CFLs), and solid-state
lighting met the 25 percent goal.

Department officials indicated that they did not consider the analysis of market availability
necessary for CFLs because they wanted to push the market to replace incandescent lamps with
CFLs that are more energy efficient than the incandescent lamps. These officials indicated that
they were aware that about 90 percent of CFL products were ENERGY STAR qualified, but
considered this to be a special case. In fact, Department officials indicated that they would like
to see 100 percent of the CFL market to be ENERGY STAR compliant. However, one of the
underlying principles of the ENERGY STAR Program is to help consumers differentiate the
most energy efficient products within a given category. When 90 percent of the products
qualify, the consumer cannot easily judge the relative efficiencies of CFL products. Regarding
solid-state lighting, officials also informed us that market availability was not analyzed because
at the time the specification was set there were no products that met the ENERGY STAR
specification. However, in the absence of documentation, we were unable to confirm the lack of
ENERGY STAR qualified solid-state lighting products.
                                                4
Department officials indicated that several conditions trigger product specification revisions.
These include changes in market share, revised Federal standards, new legislative mandates,
and/or improvements in technology. Yet, we found that the Department had not always
documented its periodic evaluations of such factors in determining when to revise ENERGY
STAR specifications. Specifications for room air conditioners, for example, had not been
revised since 2000, and the Department was unable to provide documentation regarding periodic
evaluation of market changes in room air conditioners that may have occurred and could have
triggered a revision. The October 2008 independent review, which was previously discussed in
this report, confirmed that air conditioner specifications, as well as those for dishwashers, had
not been updated "quickly enough." In the absence of procedures and documentation related to
revising product specifications, we were unable to specifically determine whether the
Department had revised ENERGY STAR product specifications in a timely manner. Delays in
updating specifications to keep pace with changes in the marketplace and energy-efficient
technologies may jeopardize the relevance of the ENERGY STAR Program to consumer
purchasing decisions.

Emphasis on Program Improvements

In spite of its leadership role in energy conservation, we found that the ENERGY STAR
Program had not placed adequate emphasis on implementing planned program enhancements.
Despite its 2007 plan to implement a quality assurance program, the 2008 independent program
review conclusion that self-reporting was not reliable, and the refrigerator incidents of non-
compliance with specifications, Department officials had not pursued an independent testing
program. Officials told us that they had not implemented an independent testing program
because it would be too expensive, manufacturers would balk at such a program, and the
appliance industry self-policed adherence to the specification. We concluded that management's
rationale not to implement planned quality assurance improvements was not persuasive. We
found that the independent review included manufacturer representatives who determined self-
reporting was not reliable, and because self-policing by the industry is not effective at preventing
non-compliant products from reaching the marketplace. This concern was directly demonstrated
by the refrigerator incidents of non-compliance discussed earlier in this report.

Department officials also stated that competing priorities and limited funding prevented them
from improving controls. We noted that the ENERGY STAR Program may be allocated
approximately $17 million by the Department under the Recovery Act to include, among other
things, expanding its coverage of product categories. This funding could also provide an
opportunity to improve program controls.

To its credit, the Department is currently considering a project to design and oversee a process
for randomly testing ENERGY STAR labeled appliances. Officials noted that the testing
program being considered would be supported with the Recovery Act funds. As of the time of
our review, the Department had not made a final decision to implement the project or the timing
and extent of actual tests to be performed. Because of the potential to mislead consumers and
waste energy, we concluded that independent third-party testing of products is an important
control to prevent the sale of products that are not compliant with ENERGY STAR
specifications.

                                                 5
RECOMMENDATIONS

To help improve the follow through on its planned corrective actions, we recommend that the
Assistant Secretary for Energy Efficiency and Renewable Energy direct the ENERGY STAR
Program manager to:

   1. Develop a consistent and comprehensive, independent testing program for all Department
      ENERGY STAR product categories to ensure compliance with required specifications.

   2. Improve oversight of the use of the ENERGY STAR label, including ensuring:
         a. Adequate coverage of qualified product categories; and,
         b. Final resolution and reporting of label use violations by retailers.

   3. Develop procedures for setting product specifications, including:
         a. Reviewing data on market availability; and,
         b. Requiring documentation of its periodic evaluation of market and product
            conditions that could trigger a revision to established specifications.

MANAGEMENT COMMENTS

Management generally agreed with our audit finding and recommendations. Management noted
that the Department's recently updated Memorandum of Understanding (MOU) with the EPA
addresses the issues raised in our report. The September 30, 2009, MOU clarifies
responsibilities regarding updating ENERGY STAR specifications, tracking and acting on logo
violations, and improving testing and monitoring. Management indicated that details of the new
approach will be provided by January 2010 in the first annual plan under the new MOU.

AUDITOR COMMENTS

Management's comments are responsive to the recommendations.

Attachments

cc: Deputy Secretary
    Under Secretary of Energy
    Chief of Staff
    Assistant Secretary for Energy Efficiency and Renewable Energy
    Team Leader, Audit Liaison Team, CF-1.2
    Dianne Williams, Office of Risk Management, CF-1.2




                                              6
                                                                                   Attachment 1

SCOPE AND METHODOLOGY

The audit was performed between December 2008 and September 2009 at the Department of
Energy's (Department) Headquarters in Washington, D.C.

To accomplish the audit objective, we:

   •   Interviewed Department officials;

   •   Reviewed "ENERGY STAR" Program laws, regulations, policies and procedures;

   •   Reviewed prior Office of Inspector General and Government Accountability Office
       reports and other related reports, including the Environmental Protection Agency's
       Office of Inspector General August 2007 audit report on the ENERGY STAR Program;

   •   Evaluated program requirements and documentation;

   •   Reviewed the Department's oversight of compliance with ENERGY STAR product
       specifications; and,

   •   Evaluated compliance testing of the proper use of the ENERGY STAR label.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our finding and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective. The audit included a test of
controls and compliance with laws and regulations to the extent necessary to satisfy the audit
objective. Because our review was limited, it would not necessarily have disclosed all internal
control deficiencies that may have existed at the time of our audit.

During the audit, we assessed the Department's compliance with the Government Performance
and Results Act of 1993. We concluded that the Department had not established performance
measures for implementing its corrective actions to improve the management controls of the
ENERGY STAR Program. We did not rely on computer generated data to perform the audit.

Department officials waived the exit conference.




                                               7
                                                                     Attachment 2




                                 September 30, 2009

MEMORANDUM FOR:              GEORGE W. COLLARD
                             ASSISTANT INSPECTOR GENERAL FOR
                               PERFORMANCE AUDITS
                             OFFICE OF INSPECTOR GENERAL

FROM:                        JOHN M. LUSHETSKY (508 Version No Signature)
                             ACTING DEPUTY ASSISTANT SECRETARY
                               FOR ENERGY EFFICIENCY
                             OFFICE OF TECHNOLOGY DEVELOPMENT
                             ENERGY EFFICIENCY AND RENEWABLE ENERGY

SUBJECT:                     Comments to the Office of Inspector General Draft Audit
                             Report on “The Department’s Management of the
                             ENERGY STAR® Program”

The Department of Energy (DOE) Office of Energy Efficiency and Renewable Energy
(EERE) welcomes the opportunity to review and comment on the subject report on the
management of its portion of the ENERGY STAR program. DOE jointly manages the
ENERGY STAR program with the Environmental Protection Agency (EPA). We
understand this audit was based on the September 12, 2007 memo from the DOE
Building Technologies Program (BTP) Acting Program Manager to the Assistant
Secretary for implementation of recommendations in the Evaluation Report ENERGY
STAR Program Can Strengthen Controls Protecting the Integrity of the Label
(Attachment 1, “BTP Memo”) issued by the EPA Inspector General (IG) in August 2007.
EERE is particularly interested in the recommendations in the report and has given them
careful consideration.

The ENERGY STAR program has been very successful in helping businesses and
consumers easily identify highly efficient products, homes, and buildings, saving energy
and money while protecting the environment. In 2008 alone, American consumers saved
approximately $19 billion in utility bills by using ENERGY STAR qualified products.
Products administered by DOE have made very significant contributions to these benefits.

As you note in your report, the Department expressed its eagerness to implement changes
to its portion of the ENERGY STAR program when the EPA IG’s findings were released
in August 2007. Most recently, DOE and EPA have announced a revision to the
ENERGY STAR Program MOU that will streamline and better coordinate the two
agencies’ activities. This revision was specifically designed to improve the development
of product specifications and test procedures as well as to implement testing and
monitoring programs that will ensure that only qualified ENERGY STAR products use
the label in the market place as was recommended by the August 2007 IG Report. This

                                           8
                                                                       Attachment 2


agreement includes an increased commitment by the Department to adequately fund
DOE-required activities under this program in recognition of the important role that the
ENERGY STAR program has and will continue to play in reducing consumer energy
bills and decreasing levels of green house gas emissions.

Our specific comments on your findings and response to the proposed actions for
implementing the reports recommendations are given in the attachment.

Thank you again for the opportunity to provide comments on this report. If you have any
questions concerning this response, please contact Joe Hagerman, Acting Program
Manager, Building Technologies Program, (202) 586-9192.




                                            9
                                                             IG Report No. DOE/IG-0827

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones (202) 586-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                   http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
